UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2685
United States of America
Appellee
v.

Antwoyn Terrell Spencer
i

Appellant
No: 19-2691
United States of America
Appellee
v.

Derrick Jerome Spencer
Appellant

Appeals from U.S. District Court for the District of Minnesota
(0:07-cr-00174-JRT-l)
(0:07-cr-00174-JRT-2)
ORDER
The court requests a supplemental brief from the government addressing (1)
whether a live controversy exists in appellant Antwoyn Spencer’s appeal, given his
concurrent sentence on Count 4, see United States v. Mannie, 971 F.3d 1145, 1152-54
(10th Cir. 2020), and (2) the government’s current position and rationale on whether the
appellants aie eligible for a reduction of sentence under § 404 of the Fair Sentencing Act.
The government’s brief should be filed by February 24 and should not exceed
3900 words. The appellants may file a single responsive brief of up to 3900 words within
Appellate Case: 19-2685

Page: 1

Date Filed: 02/17/2021 Entry ID: 5005470

Ex B- Decision of Appellate Court

seven days of the government’s service of its supplemental brief.
February 17, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2685

Page: 2

Date Filed: 02/17/2021 Entry ID: 5005470

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 1 of 6

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,

Criminal No. 07-174(1) (JRT/JJG)

Plaintiff,
v.

ANTWOYN TERRELL SPENCER,

ORDER DENYING DEFENDANT’S
MOTION FOR REDUCED
SENTENCE

Defendant.

Erica H. MacDonald, United States Attorney, and Michael L. Cheever,
Assistant United States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, 300 South Fourth Street, Suite 600, Minneapolis, MN 55415,
for plaintiff.
Antwoyn Terrell Spencer, No. 14781-0401, Federal Correctional Institution
- Sandstone, P.O. Box 1000, Sandstone, MN 55072, pro se defendant.

In September 2007, a jury found Defendant Antwoyn Terrell Spencer guilty of three
counts of a ten-count indictment: Count 1 - conspiracy to distribute 5 kilograms or more
of powder cocaine and 50 grams or more of crack cocaine in violation of 21 U.S.C. §§ 841
(a)(1) and (b)(1)(A) and 846; Count 4 - attempted possession with intent to distribute 5
kilograms or more of powder cocaine in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(A)
and 846; and Count 8 - money laundering in violation of 18 U.S.C. §§ 1956(a)(l)(B)(i).
(Indictment at 1-5, May 21, 2007, Docket No. 1 (on file with Court); Jury Verdict, Sept.
18, 2007, Docket No. 144.) At sentencing, the Court determined Spencer’s sentencing
guideline range to be 324 to 405 months. (Sentencing Tr. at 15-17, Mar. 9, 2009, Docket

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 2 of 6

No. 321.) The Court sentenced Spencer to 324 months’ imprisonment and 10 years of
supervised release on Counts 1 and 4. (Sentencing J. at 2-3, Jan. 15, 2009, Docket No.
294.) On Count 8, the Court sentenced Spencer to 240 months’ imprisonment (the statutory
maximum) with 3 years of supervised release. (Id.) The sentences were to be served
concurrently. (Id.) Spencer appealed his conviction and sentence, but the Eighth Circuit
affirmed. United States v. Spencer, 592 F.3d 866, 882 (8th Cir. 2010).
Spencer now brings a Motion to Reduce Sentence pursuant to the Fair Sentencing
Act of 2010 and the First Step Act of 2018 (“First Step Act Motion”). (First Step Act Mot.,
Apr. 15, 2019, Docket No. 443.) Because Spencer’s offenses are not covered by the First
Step Act, he is not eligible for a reduction in sentencing, and the Court will deny his First
Step Act Motion.
Spencer has also filed two motions asking the Court to expeditiously process his
First Step Act Motion, (Mot., May 10, 2019, Docket No. 451; Mot., May 28, 2019, Docket
No. 454); a motion requesting a sentencing hearing, (Mot., June 14,2019, Docket No. 455);
and a motion seeking to amend his First Step Act Motion and asking the Court to stay
resolution of his First Step Act Motion pending the outcome of a habeas petition he has
filed, (Am. Mot., June 21, 2019, Docket No. 456). The Court will deny these motions as
moot.

-2-

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 3 of 6

DISCUSSION
I.

STANDARD OF REVIEW
Under 18 U.S.C. § 3582(c), a “court may not modify a term of imprisonment once

it has been imposed,” with some exceptions. One such exception is when a sentence
modification is “expressly permitted by statute.” 18 U.S.C. § 3582(c)(1)(B).
After Spencer was sentenced, Congress enacted the Fair Sentencing Act of 2010,
which increased the amount of crack cocaine needed to trigger certain statutory mandatory
minimums. See Fair Sentencing Act of 2010, PL 111-220, Aug. 3, 2010, 124 Stat. 2372.
A 10-year mandatory minimum sentence for offenses involving crack cocaine is now
triggered by 280 grams, not 50 grams. See id. (amending 21 U.S.C. § 841(b)(l)(A)(iii)).
A 5-year mandatory minimum sentence for offenses involving crack cocaine is now
triggered by 28 grams, not 5 grams. See id. (amending 21 U.S.C. § 841(b)(l)(B)(iii)). The
Fair Sentencing Act also eliminated the statutory mandatory minimum sentence for simple
possession of crack cocaine. See id. (amending 21 U.S.C. § 844(a)). However, the Fair
Sentencing Act was not made retroactively applicable to sentences imposed before its
enactment.
In 2018, Congress enacted the First Step Act, which allows a sentencing court to
“impose a reduced sentence” on a defendant who committed a “covered offense” as if the
Fair Sentencing Act “were in effect at the time the covered offense was committed.” See
First Step Act of 2018, PL 115-391, December 21, 2018, 132 Stat 5194, 5222. A “covered
offense” is defined by the First Step Act as an offense (1) whose penalty was modified by

-3-

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 4 of 6

the Fair Sentencing Act and (2) that was committed before passage of the Fair Sentencing
Act. Id.
The First Step Act does not make a sentence reduction automatic; rather, the
defendant, the Director of the Bureau of Prisons, an attorney for the United States, or the
court itself must move for such a reduction. Id. Furthermore, granting a First Step Act
motion is left to the discretion of the court, and a motion for reduced sentence under the
First Step Act can only be made once. Id.
II.

SPENCER’S FIRST STEP ACT MOTION
The jury found Spencer responsible for at least five kilograms of powder cocaine

on both Counts 1 and 4, in addition to finding him responsible for at least 50 grams of crack
cocaine on Count l.1 Because both Counts 1 and 4 involved at least five kilograms of
powdered cocaine, they triggered the statutory penalty set by 21 U.S.C. § 841 (b)( 1)(A)(ii),
which was not modified by the Fair Sentencing Act. Because the statutory penalties for
Spencer’s powder cocaine offenses in Counts 1 and 4 were not modified by the Fair
Sentencing Act, the offenses are not “covered offenses” under the First Step Act.
Likewise, the statutory penalty for money laundering in Count 8 was not impacted
by the Fair Sentencing Act; thus, the offense is not covered by the First Step Act.

Notably, the Probation Office determined that Spencer was responsible for at least 213
kilograms of powder cocaine and at least 56 kilograms of crack cocaine. (PSR ffl] 28, 37 (on file
with Court).) The Court adopted these findings, emphasizing that that the drug quantity attributed
to Spencer was more than 40 times the amount necessary to reach the highest base offense level
of 38. (Sentencing Tr. at 14.)

-4-

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 5 of 6

Because none of Spencer’s offenses of conviction are covered offenses under the
First Step Act, he is not eligible for a sentence reduction under the First Step Act. In other
words, even if the Fair Sentencing Act had been in effect when Spencer committed the
offenses, the statutory penalties would have been the same, and he would have received
the same sentences.2 As such, the Court will deny Spencer’s First Step Act Motion.
III.

ADDITIONAL MOTIONS
Because the Court will deny Spencer’s First Step Act Motion, it will also deny his

motions to rule on the First Step Act Motion expeditiously as moot.
Spencer is not eligible for a reduced sentence; thus, his motion for a sentencing
hearing is moot and will be denied as such.
Finally, Spencer’s motion to amend his First Step Act Motion and request that the
Court stay its resolution will be denied as moot. No new argument or allegation could
entitle Spencer to a reduced sentence under the First Step Act. Review of his conviction,
the text of the Fair Sentencing Act, and the text of the First Step Act conclusively shows
that he is not entitled to a reduced sentence. The outcome of any habeas petition would
likewise not affect the resolution of Spencer’s First Step Act Motion. If Spencer were to
succeed on a habeas petition and the Court were to vacate his convictions, his motion for a
reduced sentence would be moot because there would be no sentence to reduce.

2 Even if Spencer were entitled to resentencing on Count 1, the only count of conviction
involving crack cocaine, his sentence would be unaffected as a practical matter because his
sentence on Count 4 would not be reduced, and he is serving all three sentences concurrently.
-5-

CASE 0:07-cr-00174-JRT-JJG Doc.458 Filed 07/26/19 Page 6 of 6

ORDER
Based on the foregoing, and all the files, records, and proceedings herein, IT IS
HEREBY ORDERED that:
1.

Defendant’s Motion for Reduced Sentence Pursuant to Section 404 of the

First Step Act [Docket No. 443] is DENIED;
2.

Defendant’s Motion for Immediate Ruling [Docket No. 451] and Motion to

Without Delay Grant Motion [Docket No. 454] are DENIED as moot;
3.

Defendant’s Motion for Sentencing Hearing [Docket No. 455] is DENIED

as moot; and
4.

Defendant’s Motion to Amend his First Step Act Motion [Docket No. 456]

is DENIED as moot.

DATED: July 26, 2019
at Minneapolis, Minnesota.

JOHN R. TUNHEIM
Chief Judge
United States District Court

-6-

, CASE 0:07-cr-00174-JRT-JJG Document 457 Filed 07/26/19, Page 1 of 6

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
UNITED STATES OF. AMERICA,

Criminal No. 07-174(2) (JRT/JJG)

Plaintiff,
v.
DERRICK JEROME SPENCER,

ORDER DENYING DEFENDANT’S
MOTION FOR REDUCED
SENTENCE

Defendant.

Erica H. MacDonald, United States Attorney, and Michael L. Cheever,
Assistant United States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, 300 South Fourth Street, Suite 600, Minneapolis, MN 55415,
for plaintiff.
Derrick Jerome Spencer, No. 14779-041, Federal Prison Camp - Duluth,
P.O. Box 1000, Duluth, MN 55814,pro se defendant.

In September 2007, a jury found Defendant Derrick Jerome Spencer guilty of three
drug offenses: Count 1 - conspiracy to distribute 5 kilograms or more of powder cocaine
and 50 grams or more of crack cocaine m violation of 21 U.S.C. §§ 841 (a)(1) and (b)(1)(A)
and 846; Count 2 - distribution of 9 ounces of powder cocaine in violation of 21 U.S.C.
§§ 841(a)(1) and (b)(1)(C); and Count 3 - distribution of 13.5 ounces of powder cocaine
in violation of 21 U.S.C. §§ 841(a)(1) and (h)(1)(C). (Indictment at 1-2, May 21, 2007,
Docket No. 1 (on file with Court); Jury Verdict, Sept. 18-, 2007, Docket No. 145.)
Prior to the trial, the United States gave notice of its intention to seek a sentencing
enhancement based on Spencer’s prior drug conviction, which—if applicable—would
Ex A- Decision of District Court

CASE 0:07-cr-00174-JRT~JJG

Document 457 Filed 07/26/19

Page 2 of 6

result m a mandatory minimum of 20 years’ imprisonment on Count 1. (Sentencing
Enhancement Information at 1, Aug. 31, 2007, Docket No. 98; Am

Sentencing

Enhancement Information at 1, Sept. 5, 2007, Docket No. 115.) At sentencing, the Court
concluded that the jury made the requisite finding to apply the enhanced 20-year mandatory
minimum. (Sentencing Tr. at 20, Mar. 9, 2009, Docket No. 323.) The Court granted
Spencer’s motion for a downward departure based on his criminal history being overstated
and determined Spencer’s sentencing guideline range to be 292 to 365 months. {Id. at 21'

O'

22.)1 The Court sentenced Spencer to 292 months’ imprisonment on Count 1. {Id. at 2324.) It sentenced Spencer to 240 months’ imprisonment on Counts 2 and 3. {Id.) The
Court sentenced Spencer to 10 years of supervised release on all three counts. {Id. at 24.)
All three sentences were to be served concurrently. {Id.)
Spencer appealed his conviction and sentence, but the Eighth Circuit affirmed.
United States v. Spencer, 592 F.3d 866, 882 (8th Cir. 2010). Spencer later moved for a
sentence reduction pursuant to 18 U.S.C. § 3582(c)(2) based on guideline amendments for
crack and powder cocaine sentences that were made retroactive. (Mot. to Reduce Sentence,
Dec. 4, 2015, Docket'No. 432.) The Court granted the motion and reduced Spencer’s 292month sentence to 262 months. (Order, Mar. 17, 2016, Docket No. 441.)
Spencer now brings a Motion to Reduce Sentence pursuant to the Fair Sentencing
Act of 2010 and the First Step Act of 2018 (“First Step Act Motion”). (First Step Act Mot.,

Notably, the Court found that the drug quantity attributed to Spencer was nearly nine
times the amount necessary to reach the highest base offense level of 38: (Sentencing Tr.- at 21.)
-2-

*

CASE 0:07-cr-00174-JRT-JJG

Document 457 Filed 07/26/19 Page 3 of 6

May 2, 2019, Docket No. 444.) Because Spencer’s offenses are not covered by the First
Step Act, he is not eligible for a reduction in sentencing, and the Court will deny his First
Step Act Motion.
Spencer has also moved to file a motion to reduce his sentence, (Mot., May 10,
2019, Docket No. 452), and for an immediate ruling on his First Step Act Motion, (Mot.,
May 14, 2019, Docket No. 453). The Court will deny these motions as moot

' DISCUSSION
I.

STANDARD OF REVIEW
Under 18 U.S.C. § 3582(c), a “court may not modify a term of imprisonment once

it has been imposed,” with some exceptions. One such exception is when a sentence
modification is “expressly permitted by statute.” 18 U.S.C. §. 3582(c)(1)(B).
After Spencer was sentenced, Congress enacted the Fair Sentencing Act of 2010,
which increased the amount of crack cocaine needed to trigger certain statutory mandatory
mimmums. See Fair Sentencing Act of 2010, PL 111-220, Aug. 3, 2010,-124 Stat. 2372.
A 10-year mandatory minimum sentence for offenses involving crack cocame is now
triggered by 280 grams, not 50 grams. See id. (amending 21 U.S.C.. § 841(b)(l)(A)(iii)),
A 5-year mandatory minimum sentence for offenses involving crack cocaine is now
triggered by 28 grams, not 5 grams. See id. (amending 21 U.S.C. § 841(b)(l)(B)(hi)). The
Fair Sentencing Act also eliminated the statutory mandatory minimum sentence for simple
: possession of crack cocaine. See id: (amending 21 U.S.C. § 844(a)). However, the Fair

-3-

CASE 0:07-cr-00174-JRT-JJG

Document 457 Filed 07/26/19

Page 4 of 6

Sentencing Act was not made retroactively applicable to sentences imposed before its
enactment.
In 2018, Congress enacted the First Step Act, which allows a sentencing court to
“impose a reduced sentence” on a defendant who committed a “covered offense” as if the
Fair Sentencing Act “were in effect at the time the covered offense was committed.” See
First Step Act of2018, PL 115-391, December 21, 2018, 132 Stat 5194, 5222. A “covered
offense is defined by the First Step Act as an offense (1) whose penalty was modified by
the Fair Sentencing Act and (2) that was committed before passage of the Fair Sentencing
Act. Id.
The First Step Act does not make a sentence reduction automatic; rather, the
defendant, the Director of the Bureau of Prisons, an attorney for the United States, or the
court itself must move for such a reduction. Id. Furthermore, granting a First Step Act
motion is left to the discretion of the court, and a motion for reduced sentence under the
First Step Act can only be made once. Id.
II.

SPENCER’S FIRST STEP ACT MOTION
While Count 1 involved crack cocaine, the jury also found Spencer responsible for

at least five kilograms of powder cocaine. As such, his conviction triggered the statutory
penalty set by 21 U.S.C, § 841(b)(l)(A)(ii), which was not modifiedby the Fair Sentencing
Act Thus, even if the Fair Sentencing Act had been in effect when Spencer committed the
offense, he would have been subject to the heightened statutory penalty of 21 U.S.C.
§ 841(b)(l)(A)(ii) due to the quantity of powder cocaine.

-4-

CASE 0':07-cr-00174-JRI-JJ.G Document 457 Filed 07/26/19

Page 5 of 6

Counts 2 and 3 did not involve crack cocaine. Because the statutory penalties for
these offenses were not modified by the Fair Sentencing Act, they are not covered offenses
under the First Step Act.
None of Spencer’s offenses of conviction are covered offenses under the First Step
>

Act; thus, he is not eligible for a sentence reduction under the First Step Act. As such, the
Court will deny Spencer’s First Step Act Motion.
III.

ADDITIONAL MOTIONS
Because the Court will deny Spencer’s First Step Act Motion, it will also deny his

motion to file a motion to reduce his sentence and his motion for an immediate ruling on
his First Step Act Motion as moot.

ORDER
Based on the foregoing, and all the files, records, and proceedings herein, IT IS
HEREBY ORDERED that:
1.

Defendant’s Motion for Reduced Sentence Pursuant to Section 404 of the

First Step Act [Docket No. 444] is DENIED;
2.

Defendant’s Motion to File a Motion to Reduce Sentence [Docket No. 452]

is DENIED as .moot; and
3.

Defendant’s Motion for Immediate Ruling on Motion for Imposition of a

Reduced Sentence [Docket No. 453] is DENIED as moot.

-5-

7

VA<V-

r

■ fv ’ 1 1
r.

7
V

1

V

. <

)

i

■ CASE 0:07-er-00174-JRT-JJG Document 457 Filed 07/26/19

•A

!

DATED: July 26, 2019
at Minneapolis, Minnesota.

Page. 6 of 6:

th.—

JOHN R. TUNHEIM
Chief Judge
United States District Court

‘

)

l

l

-6-

/„•

